Case: 20-1943

Document: 35

Page: 1

Date Filed: 04/08/2021

NOT PRECEDENTIAL
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
_______________________
No. 20-1943
_______________________

UNITED STATES OF AMERICA
v.
MICHAEL D. FORBES,
a/k/a Fats,
Appellant
______________________
On Appeal from the United States District Court
for the Middle District of Pennsylvania
District Court No. 1-03-cr-00250-001
District Judge: The Honorable Christopher C. Conner
__________________________
Submitted Under Third Circuit L.A.R. 34.1(a)
March 8, 2021
Before: SMITH, Chief Judge, McKEE, and AMBRO, Circuit Judges
(Filed: April 8, 2021)
__________________________
OPINION*
__________________________

*

This disposition is not an opinion of the full Court and pursuant to I.O.P. 5.7 does not
constitute binding precedent.

1a

Case: 20-1943

Document: 35

Page: 2

Date Filed: 04/08/2021

SMITH, Chief Judge.
This matter comes before the Court on Michael D. Forbes’s appeal of the District
Court’s April 20, 2020 denial of his Motion for a Sentence Reduction pursuant to Section
404(b) of the First Step Act of 2018, Pub. L. No. 115-391, 132 Stat. 5194. We will affirm
for the reasons that follow.
I.
The District Court had subject matter jurisdiction over Forbes’s original offense
under 18 U.S.C. § 3231 and jurisdiction to reduce Forbes’s sentence under 18 U.S.C.
§ 3582(c)(1)(B) and Section 404(b) of the First Step Act. We have appellate jurisdiction
under 28 U.S.C. § 1291.12
In July 2004, a jury found Forbes guilty of, inter alia, distribution and possession
with intent to distribute crack cocaine and conspiracy to do the same. The District Court
sentenced Forbes to an aggregate term of 600 months imprisonment, which this Court
affirmed on appeal. See United States v. Forbes, 164 F. App’x 251 (3d Cir. 2006)

1

In United States v. Easter, we addressed whether a district court must consider the
§ 3553(a) factors anew when exercising its discretion to reduce a defendant’s sentence
pursuant to a motion brought under § 404(b) of the First Step Act. See 975 F.3d 318, 322
(3d Cir. 2020). Noting that “the issue to be resolved is one of statutory interpretation,” we
employed a de novo standard of review. Id. We have not yet determined the standard for
reviewing a district court’s decision to deny a motion brought under the First Step Act upon
consideration of § 3553(a) factors. However, several of our sister circuits have reviewed
such decisions for abuse of discretion. See United States v. Jackson, 945 F.3d 315, 319,
n.2 (5th Cir. 2019) (recognizing the similarities between § 404(b) of the First Step Act and
18 U.S.C. § 3582(c)(2)); see also United States v. McDonald, 944 F.3d 769, 771 (8th Cir.
2019) (explaining that a defendant’s eligibility is reviewed de novo whereas the district
court’s decision to grant or deny a sentence reduction is reviewed for abuse of discretion).
We need not decide that issue here because we find no error in the District Court’s analysis.

2a

Case: 20-1943

Document: 35

Page: 3

Date Filed: 04/08/2021

(affirming conviction but remanding for resentencing in light of the Supreme Court’s
decision in United States v. Booker, 543 U.S. 220 (2005)); see also United States v. Forbes,
258 F. App’x 417 (3d Cir. 2007) (affirming post-Booker sentence), cert. denied, 552 U.S.
1267 (2008).
In February 2016, Forbes moved for a sentence reduction pursuant to 18 U.S.C.
§ 3582(c) and Amendment 782 to the Sentencing Guidelines. The District Court denied the
motion. Subsequently, Forbes moved for a sentence reduction pursuant to Section 404(b)
of the First Step Act. The District Court acknowledged that Forbes was eligible for a
sentence reduction under the Act, but it declined to exercise its discretion by reducing
Forbes’s sentence. Upon denial of this second motion, Forbes appealed.
II.
Under the Fair Sentencing Act of 2010, Pub. L. No. 111-220, 124 Stat. 2372 (2010),
Congress increased the quantity of crack-cocaine necessary to trigger the statutory
sentencing range of ten years to life. With the passage of the First Step Act, defendants
who were sentenced under a statute that the Fair Sentencing Act amended became eligible
to seek a sentence reduction.
Forbes’s argument that the District Court failed to recalculate and give sufficient
weight to his reduced advisory Guidelines range lacks merit. The District Court ruled that
Forbes was eligible for a sentence reduction under Section 404 of the First Step Act, and
also acknowledged the applicability of a reduced advisory Guidelines range. But the Court
correctly noted that mere eligibility does not require a sentence reduction because district
courts maintain discretion as to whether to grant such motions. See Pub. L. No. 115-391, §

3a

Case: 20-1943

Document: 35

Page: 4

Date Filed: 04/08/2021

404(b), 132 Stat. 5194, 5222 (“A court that imposed a sentence for a covered offense may,
on motion of the defendant . . . impose a reduced sentence . . . .”) (emphasis added).
The District Court then permissibly declined to exercise its discretion to reduce
Forbes’s sentence, noting that Forbes’s criminal history, rather than the quantity of drugs
he trafficked, gave impetus to his 600-month sentence. In arriving at that conclusion, the
District Court considered numerous relevant factors, including that Forbes began the
criminal enterprise for which he is currently incarcerated mere months after he was paroled
for a manslaughter conviction; engaged in numerous violent acts while exercising control
over his criminal organization; committed a litany of infractions while incarcerated; and
refused to express remorse for his conduct. The mere fact that these considerations resulted
in a sentence of the same length as that which was originally imposed does not mean that
the District Court failed to reconsider the § 3553(a) factors. We, therefore, find no error in
the District Court’s discretionary determination that a sentence reduction was not
warranted.23
We will affirm the District Court’s April 20, 2020 Order.

2

We also do not take issue with the District Court’s declining the opportunity to reduce
Forbes’s effective life sentence. The District Court acknowledged that a 600-month
sentence was substantial; however, in light of Forbes’s serious criminal conduct, his
recidivism, and continued refusal to show remorse, the Court believed Forbes continued to
present a danger to the community.

4a

Case: 20-1943

Document: 36-1

Page: 1

Date Filed: 04/08/2021

UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
_______________________
No. 20-1943
_______________________
UNITED STATES OF AMERICA
v.
MICHAEL D. FORBES,
a/k/a Fats,
Appellant
______________________
On Appeal from the United States District Court
for the Middle District of Pennsylvania
District Court No. 1-03-cr-00250-001
District Judge: The Honorable Christopher C. Conner
__________________________
Submitted Under Third Circuit L.A.R. 34.1(a)
March 8, 2021
Before: SMITH, Chief Judge, McKEE, and AMBRO, Circuit Judges
__________________________
JUDGMENT
__________________________
This cause came on to be considered on the record from the United States District
Court for the Middle District of Pennsylvania and was submitted on March 8, 2021,
pursuant to Third Circuit L.A.R. 34.1(a).
On consideration whereof, it is now hereby ADJUDGED and ORDERED that the
judgment of the District Court entered April 20, 2020, be and the same is hereby
AFFIRMED. All of the above in accordance with the opinion of this Court.

5a

Case: 20-1943

Document: 36-1

Page: 2

Date Filed: 04/08/2021

ATTEST:

s/ Patricia S. Dodszuweit
Clerk
Dated: April 8, 2021

6a

Case 1:03-cr-00250-CCC Document 1326 Filed 04/20/20 Page 1 of 12

IN THE UNITED STATES DISTRICT COURT
FOR THE MIDDLE DISTRICT OF PENNSYLVANIA
UNITED STATES OF AMERICA
v.
MICHAEL D. FORBES (1),
Defendant

:
:
:
:
:
:
:

CRIMINAL NO. 1:03-CR-250
(Chief Judge Conner)

MEMORANDUM
Defendant Michael D. Forbes moves the court for a sentence reduction
under Section 404(b) of the First Step Act of 2018, § 404(b), Pub. L. No. 115-391, 132
Stat. 5194, 5222. In an order dated October 4, 2019, we found that Forbes is eligible
for relief under the First Step Act but deferred ruling on his motion pending receipt
of an addendum to the presentence report and submissions from the parties.
Having reviewed the record, the addendum, and the parties’ submissions, we
decline to exercise our discretion to reduce Forbes’ sentence.
I.

Factual Background and Procedural History
On September 17, 2003, a grand jury returned a 22-count indictment

charging Forbes and 20 others with trafficking and conspiring to traffic heroin,
crack cocaine, and powder cocaine in the Middle District of Pennsylvania. (Doc. 1).
The grand jury returned a superseding indictment on October 1, 2003, adding five
counts and as many defendants. (Doc. 129). The government struck plea deals with
nearly all of Forbes’ codefendants, and on March 17, 2004, the grand jury returned
a second superseding indictment naming Forbes and only one other codefendant.

7a

Case 1:03-cr-00250-CCC Document 1326 Filed 04/20/20 Page 2 of 12

(Doc. 505). That codefendant also pled guilty, and the case proceeded to trial on the
second superseding indictment against Forbes alone.
The second superseding indictment charged Forbes with manufacturing,
distributing, and possessing with intent to manufacture and distribute 100 grams
or more of heroin and 50 grams or more of crack cocaine and powder cocaine, in
violation of 21 U.S.C. § 841(a)(1) and 18 U.S.C. § 2 (Count I); interstate travel to
facilitate drug trafficking in violation of 18 U.S.C. § 1952(a)(3) (Count III); use of a
communication facility in connection with a drug-trafficking offense in violation of
21 U.S.C. § 843(b) (Count IV); using, carrying, and discharging a firearm during a
drug-trafficking offense in violation of 18 U.S.C. § 924(c)(1)(A)(iii) (Count VI); and
conspiracy to manufacture, distribute, and possess with intent to manufacture and
distribute 100 grams or more of heroin and 50 grams or more of crack cocaine and
powder cocaine in violation of 21 U.S.C. § 846 (Count VII). (Doc. 505).
On July 15, 2004, following a four-day trial, the jury returned a guilty
verdict on Counts I, IV, VI, and VII, and a not-guilty verdict on Count III. (Doc.
716). The jury made the following additional findings: (1) as to Count I, Forbes was
responsible for more than 500 grams but less than 1.5 kilograms of crack cocaine,
and more than 5 grams but less than 10 grams of heroin; (2) as to Count VI, the
subject firearm was both brandished and discharged during the course of Forbes’
drug-trafficking activities; (3) as to Count VII, that the conspiracy involved more
than 500 grams but less than 1.5 kilograms of crack cocaine but did not involve
heroin; and (4) that Forbes was an organizer or leader of criminal activity that
involved five or more participants. (Id.)

8a

Case 1:03-cr-00250-CCC Document 1326 Filed 04/20/20 Page 3 of 12

The presentence report grouped Counts I, IV, and VII and calculated an
adjusted offense level of 42, which represented a base offense level of 36; a four-level
increase for a leadership role in the offense; and a two-level increase for obstruction
of justice. (PSR ¶¶ 13, 16, 17, 21). The Guidelines sentence for Count VI was the
statutory minimum. (Id. ¶ 22). At sentencing, the court adopted the base offense
level and leadership enhancement recommended by the presentence report, finding
that each was fully supported by the jury’s verdict. (10/29/04 Sentencing Tr. 15:1016:16). The court did not resolve Forbes’ objection to the obstruction-of justice
enhancement since its application had no impact on the Guidelines range. (Id. at
16:17-17:2). An uncontested criminal history category of VI and an offense level
of either 40 or 42 produced a Guidelines imprisonment range of 360 months to life
on Counts I, IV, and VII, to be followed by a 120-month consecutive mandatory
minimum term on Count VI. (See id.) The court imposed an aggregate sentence of
600 months’ imprisonment, consisting of 480 months on Counts I and VII and 48
months on Count IV, to run concurrently, and a statutorily mandated consecutive
term of 120 months on Count VI. (See Doc. 936).
Forbes appealed to the Third Circuit Court of Appeals, which affirmed his
conviction but remanded for resentencing in light of the United States Supreme
Court’s intervening decision in United States v. Booker, 543 U.S. 220 (2005). See
United States v. Forbes, 164 F. App’x 251 (3d Cir. 2006) (nonprecedential). During
the Booker resentencing on April 19, 2006, the court addressed the salient § 3553(a)
factors and resentenced Forbes to a term of imprisonment identical to the original
judgment of sentence. (Doc. 1095). The court underscored in particular Forbes’

9a

Case 1:03-cr-00250-CCC Document 1326 Filed 04/20/20 Page 4 of 12

leadership role in the instant offense, including his brutal and oft-ruthless control
tactics; his total lack of responsibility or remorse; his violent criminal record; and
his “utter disdain for the laws of a civilized society.” (4/19/06 Resentencing Tr.
17:13-19:7). The Third Circuit affirmed Forbes’ post-Booker sentence, see United
States v. Forbes, 258 F. App’x 417 (3d Cir. 2007) (nonprecedential), and the Supreme
Court denied certiorari, see Forbes v. United States, 552 U.S. 1267 (2008) (mem.).
On February 3, 2016, Forbes moved for a reduced sentence pursuant to 18
U.S.C. § 3582(c) and Amendment 782 to the United States Sentencing Guidelines.
We denied that motion in an opinion dated March 28, 2016. See United States
v. Forbes, No. 1:03-CR-250, 2016 WL 1182249 (M.D. Pa. Mar. 28, 2016); (Docs. 1301,
1302). We determined that, while Forbes was eligible for a reduced sentence, a
reduction was not warranted based on the Section 3553(a) factors, Forbes’ postsentencing conduct, and the ongoing threat he presented to public safety. See
Forbes, 2016 WL 1182249, at *3-4. Forbes appealed, (see Doc. 1304), the Third
Circuit affirmed, see United States v. Forbes, 664 F. App’x 184 (3d Cir. 2016)
(nonprecedential), and the Supreme Court denied certiorari, see Forbes v. United
States, 137 S. Ct. 1354 (2017) (mem.).
Forbes now moves the court for a sentence reduction pursuant to Section
404(b) of the First Step Act. On October 4, 2019, we issued an order concluding
that Forbes is eligible for relief under the First Step Act. (Doc. 1318). We deferred
ruling on Forbes’ motion pending preparation of an addendum to the presentence
report and receipt of presentencing submissions. (Id.) The United States Probation
Office has prepared an addendum to the presentence report, and both Forbes and

10 a

Case 1:03-cr-00250-CCC Document 1326 Filed 04/20/20 Page 5 of 12

the government have submitted briefs articulating their positions.1 Forbes has also
submitted a personal letter to the court, as well as character letters from his mother,
sister, and a friend. We have carefully reviewed these exhibits, the parties’ briefs,
and the entire record. Forbes’ motion is now ripe for disposition.
II.

Discussion
The First Step Act authorizes federal district courts to impose a reduced

sentence for covered crack cocaine offenses where the statutory penalties of the
Fair Sentencing Act of 2010, Pub. L. No. 111-220, §§ 2-3, 124 Stat. 2372, 2372, would
have applied had that Act been in effect when the covered offense was committed.
See First Step Act § 404(b). The First Step Act defines a “covered offense” in
relevant part as “violation of a Federal criminal statute, the statutory penalties
for which were modified by section 2 . . . of the Fair Sentencing Act . . . that was
committed before August 3, 2010.” Id. § 404(a). Section 2 of the Fair Sentencing
Act, in turn, increased the quantity of crack cocaine required to trigger mandatory
minimum penalties under 21 U.S.C. § 841(b)(1)(A)(iii) from 50 to 280 grams and

1

While the government obviously opposes any reduction of Forbes’ 600month sentence, (see Docs. 1314, 1324), its sentencing memorandum closes with
the curious statement that a “combined total sentence of 525 months,” representing
“a reduction . . . of 6 years, 4 months,” would be “sufficient” to achieve the goals of
sentencing. (See Doc. 1324 at 7). This appears to be an inartful attempt to state an
argument in the alternative. What the government means to say, we think, is that
if we are inclined to reconsider Forbes’ sentence at all, a sentence at the very top of
the new Guidelines range would be appropriate. Regardless of the government’s
stated position or alternative recommendation, sentence reduction under the First
Step Act remains a matter of judicial discretion. See First Step Act § 404(c).

11 a

Case 1:03-cr-00250-CCC Document 1326 Filed 04/20/20 Page 6 of 12

under 21 U.S.C. § 841(b)(1)(B)(iii) from 5 to 28 grams. See Fair Sentencing Act
§ 2(a).
We have already found that Forbes is eligible for relief under the First
Step Act. (Doc. 1318 at 2 & n.1). The relevant offenses charged at Counts I and
VII—distribution of and possession with intent to distribute 50 grams or more of
crack cocaine, and conspiracy to commit same, respectively—had their statutory
range of imprisonment reduced by the Fair Sentencing Act from a minimum of
10 years and maximum of life to a minimum of 5 years and a maximum of 40 years.
(See id. at 2). Forbes’ statutory exposure on the remaining counts is unchanged:
Count IV carries no minimum and a maximum of four years, and Count VI carries
a 10-year minimum and a maximum of life. (See Doc. 1319 at 1, 3). The addendum
to the presentence report calculates a reduced Guidelines imprisonment range for
Counts I, IV, and VII of either 324 to 405 months (with an obstruction-of-justice

12 a

Case 1:03-cr-00250-CCC Document 1326 Filed 04/20/20 Page 7 of 12

enhancement) or 262 to 327 months (without the enhancement), to be followed by
the consecutive 10-year term on Count VI.2 (See id. at 3).
Whether a reduced sentence is warranted is a separate question. Relief
under Section 404(b) is not automatic. See First Step Act § 404(c). On this point,
the First Step Act is clear: “Nothing in this section shall be construed to require
a court to reduce any sentence pursuant to this section.” Id. Once eligibility is
determined, the decision to grant or deny a reduction is within the district court’s
discretion. Id.; see also United States v. Crews, 385 F. Supp. 3d 439, 443-44 (W.D.
Pa. 2019) (collecting cases). In considering whether to exercise this discretion,
courts within this judicial district have looked to the Section 3553(a) sentencing

2

Because we decline infra to exercise our discretion to reduce Forbes’
sentence under the First Step Act, we do not resolve the parties’ outstanding
disputes as to whether intervening Supreme Court decisions impact Forbes’
statutory resentencing exposure or whether a plenary Guidelines recalculation
accounting for other jurisprudential developments is appropriate. However, we
are inclined to agree with the government that, because the second superseding
indictment charged an enhancement-triggering drug weight (50 grams) and the jury
found Forbes responsible for more than that weight (500 grams) unanimously and
beyond a reasonable doubt, Forbes’ statutory sentencing exposure is properly
determined by the 50-gram drug weight. The same would ostensibly be true of the
statutory enhancement of Count VI—because the second superseding indictment
charged Forbes with using and discharging a firearm during a drug-trafficking
crime, and the jury found unanimously and beyond a reasonable doubt that a
firearm was used and discharged, the statutory sentencing exposure on Count VI
would remain 10 years to life imprisonment.

13 a

Case 1:03-cr-00250-CCC Document 1326 Filed 04/20/20 Page 8 of 12

factors,3 see 18 U.S.C. § 3553(a), as well as relevant postsentencing conduct. See,
e.g., United States v. Surine, No. 4:07-CR-304, ___ F. Supp. 3d ___, 2019 WL 6699914,
at *2-4 (M.D. Pa. Dec. 9, 2019); United States v. Cruz, No. 1:95-CR-204, 2019 WL
3070562, at *7-8 (M.D. Pa. July 12, 2019); see also Pepper v. United States, 562 U.S.
476, 493 (2011) (concluding that postsentencing conduct “bears directly” on a
resentencing calculus).
We decline to exercise our discretion under the First Step Act here. It is
the court’s considered view that the goals of sentencing require that Forbes’ 600month sentence remain intact. As an initial matter, we note that the driving force
behind Forbes’ sentence was not the quantity of drugs trafficked by the conspiracy
he led. That quantity set the Guidelines range but played little role in the ultimate
sentencing calculus within that range. Rather, as our observations throughout this
case reflect, we found the sentence to be necessary to account for this defendant’s
violent nature, his incorrigible criminality, and the danger he poses to the public.
During Forbes’ initial, pre-Booker sentencing, we concluded that the 600month aggregate term imposed was necessary due to not only the “seriousness of
3

The Section 3553(a) factors are (1) “the nature and circumstances of
the offense and the history and characteristics of the defendant”; (2) “the need
for the sentence imposed . . . to reflect the seriousness of the offense, to promote
respect for the law, and to provide just punishment for the offense; . . . to afford
adequate deterrence to criminal conduct; . . . to protect the public from further
crimes of the defendant; and . . . to provide the defendant with needed educational
and vocational training, medical care, or other correctional treatment in the most
effective manner”; (3) “the kinds of sentences available”; (4) the kinds of sentence
and sentencing range recommended by the United States Sentencing Guidelines;
(5) pertinent policy statements issued by the United States Sentencing Commission;
(6) “the need to avoid unwarranted sentencing disparities” among similarly situated
defendants; and (7) the need for restitution. 18 U.S.C. § 3553(a).

14 a

Case 1:03-cr-00250-CCC Document 1326 Filed 04/20/20 Page 9 of 12

the offenses at issue” but also “the defendant’s other violent acts and his prior
criminal history, including manslaughter.” (10/29/04 Sentencing Tr. 26:13-23).
During the Booker resentencing, we reinforced these findings at some length,
concluding that the 600-month sentence remained appropriate in view of the
18 U.S.C. § 3553(a) factors and observing:
In the instant matter [Forbes] was the
ringleader of a large scale crack and heroin distribution
organization. He ruthlessly exercised control over this
organization using force and intimidation to keep his
minions in line. He ordered and participated in acts of
brutality in furtherance of his criminal scheme, including
attacks on rival drug distributors and on those who
sought to leave his organization.
He demonstrated no responsibility or remorse for
his actions, and following his arrest continued to exercise
some control over his enterprise. His criminal record
reflects that for much of his life the defendant has shown
utter disdain for the laws of a civilized society. Indeed,
the instant offenses were begun by the defendant only
months after his parole from a conviction for
manslaughter.
The court does not doubt for an instant that the
defendant is a danger to this society and that the sentence
imposed today reflects the seriousness of the instant
offense, takes into account the defendant’s substantial
criminal record, and is absolutely necessary to promote
respect for the law and to deter future criminal conduct.
(4/19/06 Resentencing Tr. 17:24-18:24). And ten years later, when Forbes moved for
a sentence reduction under Amendment 782 to the Sentencing Guidelines, we said:
Forbes has repeatedly exhibited a dearth of
conscience and a blatant disregard for human life, both
with respect to the offense conduct underlying his
current sentence and past offenses. He expressed no
remorse at the sentencing proceedings in this matter,
and his misconduct while imprisoned demonstrates

15 a

Case 1:03-cr-00250-CCC Document 1326 Filed 04/20/20 Page 10 of 12

neither repentance nor rehabilitation. Rather, his
conduct bespeaks an unrelenting commitment to his
chosen criminal path. In short, the inextinguishable
threat presented by this defendant can be restrained
only by continued incarceration. For the sake and the
safety of the public, the initial sentence imposed by this
court must remain intact.
Forbes, 2016 WL 1182249, at *4.
These same concerns remain today. This is an individual who broke a
young woman’s nose with a Nerf baseball bat over a drug debt. Who forced a
drug-addicted coconspirator to eat cat feces. Who held a knife to the throat of
another drug dealer over stolen drug proceeds. Who was involved in a car chase
and shootout during which several vehicles were shot. Who, together with an
unknown associate, shot, stabbed, and hospitalized a rival drug dealer. And who
did all of this in the weeks and months following his parole from an approximately
seven-year prison term for first-degree manslaughter—a conviction landed for
shooting and killing an individual with an AK-47 assault rifle while on parole from
yet another prison sentence.
Appointed counsel argues that Forbes is now a different man than these
facts depict. (Doc. 1325 at 19-20). But we respectfully disagree that Forbes “has
gotten it together.” (See id. at 1-2, 19-20). In the past four years alone, Forbes has
been disciplined for being in an unauthorized area (March 2016), refusing work
or program assignments and failing to follow safety regulations (July 2017), failing
to follow safety regulations (September 2017), destroying property of $100 or less
(November 2017), possessing contraband (March 2018), and mail abuse (April 2018).

16 a

Case 1:03-cr-00250-CCC Document 1326 Filed 04/20/20 Page 11 of 12

In March 2019, he was sanctioned for fighting.4 As we intimated in 2016, we suspect
that Forbes’ lack of seriously violent incidents while in prison is largely attributable
to having been incarcerated in the federal government’s most secure penitentiaries.
See Forbes, 2016 WL 1182249, at *4 & n.2. And it does little to quell our concerns
that Forbes seemingly shaped up after the First Step Act’s passage. (See Doc. 1325
at 20). That Forbes sees an opportunity does not convince us that he has seen the
light.
Finally, counsel identifies as a distinguishing factor that we are now hearing
from Forbes directly for the first time. In a letter attached to his motion, Forbes
indicates that “I’ve always been responsible for my actions,” that “[i]t’s been a
rough 16 years” adjusting to life in federal prison, and that Forbes now realizes
“I have to do this time and stop letting the time do me.” (Doc. 1325-1). Forbes says
the “world has changed drastically and so have I” and that he would “just like a fair
shot at freedom.” (Id.) We appreciate that Forbes is finally taking some semblance
of ownership for his conduct. But his letter is more notable for what it lacks. There
is no indication of remorse in Forbes’ words, nor any sympathy for the many he has

4

Forbes was also sanctioned for fighting in September 2018, although
records provided by the probation officer indicate that Forbes “was not the
aggressor, defended himself.” We note that the above-summarized incidents are
just the record that Forbes accumulated between our March 2016 decision and
today. As detailed in the probation officer’s Amendment 782 addendum, Forbes
was sanctioned on 36 other occasions between 2004 and 2016 for offenses ranging
from insubordination, possessing contraband, and stealing food service items
to possessing intoxicants, fighting (twice), and possessing a dangerous weapon
(twice). (See Doc. 1299 at 5-10).

17 a

Case 1:03-cr-00250-CCC Document 1326 Filed 04/20/20 Page 12 of 12

hurt. The letter reveals only that, to Forbes, the tradeoff of a 50-year sentence for
his crimes was “not worth it.” (Id.)
For all of these reasons, we will deny Forbes’ motion for a sentence
reduction. We recognize that the 600-month term of imprisonment imposed in this
case is substantial. But it is substantial for entirely valid reasons. This defendant
engaged in serious criminal conduct. He has committed acts of extreme violence
and cruelty, both in this case and previously, and he has yet to express remorse for
that conduct. His criminal record demonstrates a pattern of recidivism, and his
prison disciplinary history reflects ongoing if not continuous misconduct. We
believe that Michael Forbes continues to present a danger to the public. Thus, the
manifold concerns that supported his 600-month sentence in 2004, in 2006, and in
2016 support our denial of his motion today.
III.

Conclusion
We decline to exercise our discretion under Section 404(b) of the First Step

Act. An appropriate order shall issue.
/S/ CHRISTOPHER C. CONNER
Christopher C. Conner, Chief Judge
United States District Court
Middle District of Pennsylvania
Dated:

April 20, 2020

18 a

Case 1:03-cr-00250-CCC Document 1327 Filed 04/20/20 Page 1 of 1

IN THE UNITED STATES DISTRICT COURT
FOR THE MIDDLE DISTRICT OF PENNSYLVANIA
UNITED STATES OF AMERICA
v.
MICHAEL D. FORBES (1),
Defendant

:
:
:
:
:
:
:

CRIMINAL NO. 1:03-CR-250
(Chief Judge Conner)

ORDER
AND NOW, this 20th day of April, 2020, upon consideration of defendant
Michael D. Forbes’ motion (Doc. 1309) for a sentence reduction under Section
404(b) of the First Step Act of 2018, § 404(b), Pub. L. No. 115-391, 132 Stat. 5194,
5222, and for the reasons set forth in the accompanying memorandum, it is hereby
ORDERED that Forbes’ motion (Doc. 1309) is DENIED.

/S/ CHRISTOPHER C. CONNER
Christopher C. Conner, Chief Judge
United States District Court
Middle District of Pennsylvania

19 a

Case 1:03-cr-00250-CCC Document 1318 Filed 10/04/19 Page 1 of 4

IN THE UNITED STATES DISTRICT COURT
FOR THE MIDDLE DISTRICT OF PENNSYLVANIA
UNITED STATES OF AMERICA
v.
MICHAEL D. FORBES,
Defendant

:
:
:
:
:
:
:

CRIMINAL NO. 1:03-CR-250
(Chief Judge Conner)

ORDER
AND NOW, this 4th day of October, 2019, upon consideration of the motion
(Doc. 1309) for resentencing hearing under Section 404 of the First Step Act filed
by defendant Michael D. Forbes (“Forbes”), wherein Forbes contends that he is
eligible for a sentencing reduction pursuant to Section 404 of the First Step Act of
2018, § 404, Pub. L. No. 115-391, 132 Stat. 5194, and the court observing that Section
404 of the First Step Act authorizes a district court to impose a reduced sentence
for covered crack cocaine offenses where the statutory penalty provisions of the
Fair Sentencing Act of 2010, Pub. L. No. 111-220, 124 Stat. 2372, §§ 2-3, would have
applied had that Act been in effect when the covered offense was committed, see
First Step Act § 404(b), 132 Stat. at 5222, and that the First Step Act defines a
“covered offense” as “violation of a Federal criminal statute, the statutory penalties
for which were modified by section 2 or 3 of the Fair Sentencing Act . . . , that was
committed before August 3, 2010,” id. § 404(a), and further observing that section
2 of the Fair Sentencing Act increased the quantity of crack cocaine required to
trigger mandatory minimum penalties under 21 U.S.C. § 841(b)(1)(A)(iii) from 50
to 280 grams and under 21 U.S.C. § 841(b)(1)(B)(iii) from 5 to 28 grams, see Fair

20 a

Case 1:03-cr-00250-CCC Document 1318 Filed 10/04/19 Page 2 of 4

Sentencing Act § 2(a), and it appearing that the parties are in agreement, and
the court concurs, that Forbes is serving a sentence for a “covered offense” as
contemplated by the First Step Act, (Doc. 1310 at 8-12; Doc. 1314 at 7-8; see Doc.
1095), in that Forbes was sentenced for distribution and possession with intent to
distribute 50 grams and more of crack cocaine, and for conspiracy to distribute
and possess with intent to distribute same, pursuant to 21 U.S.C. § 841(b)(1)(A)(iii),
(see Docs. 505, 1095), 1 which drug weight, prior to the Fair Sentencing Act, carried
a mandatory minimum term of 10 years’ imprisonment and a statutory maximum
term of life, (see Doc. 1103 at 13:1-3), and now carries a mandatory minimum term
of 5 years’ imprisonment and a statutory maximum term of 40 years’ imprisonment,
21 U.S.C. § 841(b)(1)(B)(iii), but it appearing that the parties disagree as to whether
the First Step Act entitles eligible defendants to plenary resentencing hearings, and
the court concluding that neither the First Step Act nor 18 U.S.C. § 3582(c)(1)(B)

1

The docket in this case somewhat obscures Forbes’ “offenses” for First
Step Act purposes. The second superseding indictment charges Forbes in Count
1 with distributing and possessing with intent to distribute 50 grams or more of
crack cocaine, and in Count 7 with conspiring to distribute and possess with intent
to distribute 50 grams or more of cocaine. (Doc. 505). The jury was not instructed
on drug weight, but in special interrogatories on the verdict form, the jury found
unanimously and beyond a reasonable doubt that the amount of crack cocaine that
was distributed for Counts 1 and 7 was “500 grams or more.” (See Doc. 716 at 2, 5).
Both the pre- and post-Booker judgments, however, contain a clerical error, stating
a drug weight of “5 grams or more of crack cocaine” for Count 1 while retaining the
jury finding of “500 grams or more of crack cocaine” for Count 7. (See Docs. 936,
1095 (emphasis added)). It is our view that the 50-gram drug weights charged in
the second superseding indictment, not the 500-gram drug weights later found by
the jury, define Forbes’ “offenses” for purposes of the First Step Act. Because the
offenses charged—distribution of and possession with intent to distribute 50 grams
or more of crack cocaine, and conspiracy to commit same—had their statutory
penalty reduced by the First Step Act, Forbes is eligible for relief.

21 a

Case 1:03-cr-00250-CCC Document 1318 Filed 10/04/19 Page 3 of 4

contemplate a plenary resentencing for eligible defendants, 2 but that it is both
necessary and appropriate to hear from the parties before the court decides
whether to impose a reduced sentence, 3 it is hereby ORDERED that:
1.

Forbes’ motion (Doc. 1309) for resentencing hearing under Section
404 of the First Step Act is DENIED to the extent it requests a plenary
resentencing hearing but is CONSTRUED as a motion for reduction
of sentence under 18 U.S.C. § 3582(c)(1)(B) to the extent it requests a
sentence reduction pursuant to Section 404 of the First Step Act.

2

Nothing in the First Step Act establishes an independent resentencing
mechanism for defendants eligible for relief. Rather, 18 U.S.C. § 3582(c)(1)(B)
provides that mechanism, authorizing the court to “modify an imposed term of
imprisonment to the extent otherwise expressly permitted by statute.” 18 U.S.C.
§ 3582(c)(1)(B). The robust consensus among district courts to address the question
is that a defendant is not entitled to a plenary resentencing hearing under Section
3582(c)(1)(B). See United States v. Surine, No. 4:07-CR-304, Doc. 411 at 3 nn. 9-10
(M.D. Pa. July 10, 2019) (Brann, J.) (collecting cases); United States v. Crews, 385 F.
Supp. 3d 439, 444-45 (W.D. Pa. 2019) (same). But see United States v. Reaves, No.
1:07-CR-104, Doc. 483 (M.D. Pa. June 14, 2019) (Brann, J.) (plenary resentencing
warranted when defendant’s original sentencing was an “merely an academic
exercise” due to mandatory minimum term of life); United States v. Rhines, No.
4:01-CR-310, Doc. 355 (M.D. Pa. May 31, 2019) (Jones, J.) (same). The majority’s
rationale is primarily grounded in Federal Rule of Criminal Procedure 43(b)(4),
which states: “A defendant need not be present . . . [when a] proceeding involves
the correction or reduction of sentence under . . . 18 U.S.C. § 3582(c).” FED. R. CRIM.
P. 43(b)(4). We agree and conclude that a defendant eligible for relief under the
First Step Act is not entitled to a plenary resentencing hearing.
3

Forbes contends that any recalculation of his statutory sentencing exposure
must be informed by the Supreme Court’s decision in Alleyne v. United States, 570
U.S. 99 (2013), and the Third Circuit’s decision in United States v. Rowe, 919 F.3d
752 (3d Cir. 2019). Forbes avers that these decisions have the effect of reducing his
mandatory minimum sentencing exposure to zero and his statutory maximum term
to 20 years—an argument that, if successful, would make unlawful the current 480month terms of imprisonment on Counts 1 and 7. (See Doc. 1310 at 7-8, 10; Doc.
1317 at 4-5). The government “assume[s] the defendant’s position is incorrect” in its
opposition brief but does not explicitly oppose Forbes’ assertion that the applicable
statutory maximum sentence on Counts 1 and 7 is now 20 years. (See Doc. 1314 at
7-9). The government shall more clearly state and support its position on this issue
in the sentencing memorandum directed to be filed infra.

22 a

Case 1:03-cr-00250-CCC Document 1318 Filed 10/04/19 Page 4 of 4

2.

The United States Probation Office shall file an addendum to the
presentence report setting forth the revised statutory minimum and
maximum terms of imprisonment and supervised release, if any,
together with a revised advisory Guidelines range, if any, on or
before Friday, October 18, 2019.

3.

The parties shall file memoranda addressing the salient 18 U.S.C.
§ 3553(a) factors as well as any post-sentencing rehabilitative efforts
on or before Friday, November 15, 2019. The parties may file
documentation supporting their respective positions together with
their sentencing memoranda. The parties’ memoranda shall also
address the court’s concerns, expressed supra at note 3, with respect to
Forbes’ statutory sentencing exposure as a result of the First Step Act.

/S/ CHRISTOPHER C. CONNER
Christopher C. Conner, Chief Judge
United States District Court
Middle District of Pennsylvania

23 a

